                               CLOSEOUT FOR hi93060033
       On July- 21, 1993, OIG was contacted by the complainant,         0a faculty
member at the-                                         (the institution). The complainant is the
principal investigator of 0N
                           -                            entitled,

the award, who was also a faculty member at the institution, had, with institutional approval,
used $35,000 of award funds to purchase             over the complainant's objections and without
obtaining the required number of competitive bids. T h e was to be used as an instructional
tool in undergraduate courses. The complainant listed several safety concerns related to the use
of t h e &         those courses and indicated that the institution's decision to purchase the
equipment without her signature on the purchase order might have been influenced by her
gender.
         OIG was aware that the Grant General Conditions state that it is the responsibility of the
institution to take steps to protect itself, its employees, and its property from any accidents,
illnesses, or claims arising from work supported by NSF awards. NSF is not liable. However,
in view of the alleged safety problems associated with the use of t h e e undergraduate
courses, we felt it was appropriate to find out how these program-related issues were being
addressed by the institution. With the co-operation of the NSF program, OIG sent the institution
a letter identifving the issues and asking for further information. The institution was asked to
respond directly to the NSF p r o m officer,
                                                        H




                                                                      -



        On August 23, 1993, the program officer received a response from two administration
officials,,4-4                                                             1-1
                                     Vice President for Business Affairs, and
a       Provost and Vice President for Academic Affairs. The two officials acknowledged that
there was a "poor working relationship" between the complainant and the co-investigator which
stemmed from incompatible communication styles. They stated that gender issues did not enter
into the institution's decision to pu~chaset h e m without the complainant's approval and that
the complainant has not registered a complaint with the institution office established to handle
such allegations.

       The administration officials stated that the NSF award described four separate projects
by four separate individuals who have different professional expertises. Unlike most awards
where the principal investigator coordinates the activities of other investigators, or co-PIS, listed
on the award, the institution felt that the investigators' responsibilities in this award were so
different and the interpersonal problems were such that there was no need for consensus among
them prior to proceeding with the purchase of the equipment to be used in the co-investigator's
project.
                                                i

        The administration officials stated that the co-investigator had difficulty finding a
company selling the particular -ified            in the award. Most f m s had long waiting lists .
for such equipment and they did not want to provide the warrahty, maintenance, and service
support specified by the institution. ~ v e n t dalfm
                                                    ~ contacted the co-investigator with an offer
for a t h a t also met the institution's requirements. However, the firm required a purchase
order within thirty days or it would sell the equipment to another interested party. When
presented with the purchase order, the complainant refused to sign it and proposed a meeting

                                            Page 1 of 2
                              CLOSEOUT FOR M93060033
in two months to discuss the purchase. The long delay before the meeting was attributed to
injuries the complainant had sustained in an auto accident; however, the officials noted that the
complainant was teaching and attending other meetings at the time. OIG found information in
memos addressing the purchase which had been supplied by the complainant that confirmed the
proposal to meet in two months.

         In meetings with a number of administration officials, the co-investigator, and the
institution's purchasing staff it was decided to proceed with the purchase without the
complainant's signature. The administrators stated that the purchase of ht-as         consistent
with institutional policies and p d u r e s . Competitive bids were not obtained because, to the
institution's knowledge, there was only one company offering the equipment with the required
warranty and service support.

         These officials stated that the complainant's safety concerns were studied carefully. The
students and faculty will o rate a controller that guides t h e The controller will be
located outside of the d w o r k envelope. A separator will be installed to physically separate
the-work           envelope from other space while the -is         in operation. The institution's
safety officials will inspect the install-

       The NSF program officer informed OIG that the program was generally satisfied with
the institution's response and that it did not intend to pursue these issues further. OIG
concluded that institution's response adequately addressed our concerns and that it had satisfied
the NSF program's concerns as well. OIG closed this case.

      9
      1                      qtaa/ql

Staff Scientist, Oversight

Concurrence:




cc:    Signatories
       Inspector General

                                           Page 2 of 2
